Record Press Inc., 229 West 36th Street, New Yark, N.Y. IDDIB•
Tel: (212) 619-4949• Fax Na. (212) BDB-3141

87584

STATE OF NEW YORK.

SS:

COUNTY OF NEW YORK

AFFIDAVIT DF SERVICE

Howard Daniels being duly sworn. deposes and says that deponent is not party to the action. and is over 18 years of age.
That on the 1st day of July 2021 deponent served 3 copies of the within
BRIEF IN DPPDSITIDN

upon the attorneys at the addresses below. and by the following method:
BY FEDERAL EXPRESS NEXT BUSINESS DAY DELIVERY
Maryellen Madden
Montgomery McCracken
Walker & Rhoads LLP
1735 Market Street
Philadelphia, PA 19103
(215) 772-1500
mmadden@mmwr.com

Attorneys for Petitioner

I. Howard Daniels. declare under penalty of perjury under the laws of the United States of America that the foregoing is true and
correct. executed on July I. 2021. pursuant to Supreme Court Rule 28.5(c). All parties required to be served. have been served.

~o-.nA
Howard Daniels

t/J~.

Sworn to me this

July I. 2021
Jasmine Williams
Notary Public. State of New York
No. DlWl6387848
Uualified in Uueens County
ission Expires September 16. 2023

Case Name: Center for Investigative Reporting v.
Southeastern Pennsylvania Transportation Authority
(CIR v.SEPTA)
Docket/Case Na. 20-1378

